              OFFICE OF THE SPECIAL INSPECTOR GENERAL

                    FOR AFGHANISTAN RECONSTRUCTION




            INSPECTION OF IMPROVEMENTS TO THE
          KHOWST CITY ELECTRICAL POWER SYSTEM:

                SAFETY AND SUSTAINABILITY ISSUES
                WERE NOT ADEQUATELY ADDRESSED




                              JULY 28, 2009
                                  ,




SIGAR Inspection-09- I
        SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION
                                         400 Army-Navy Drive
                                        Arlington, Virginia 22202

                                                                                         July 28, 2009


MEMORANDUM FOR: Commander, United States Forces-Afghanistan

                        Commander, Combined Joint Task Force-82


SUBJECT:     Inspection of Improvements to the Khowst City Electrical Power System: Safety and
             Sustainability Issues Were Not Adequately Addressed (SIGAR Inspection 09-1)


This report provides observations and findings of the inspection that SIGAR conducted on May 15-17,
2009 which examined aspects of the project initiated by the Khowst Provincial Reconstruction Team
(PRT) to improve the Khowst City Electrical Power System. The inspection assessed the design and
construction work performed as part of that project in 2008 which was funded with $1.565 million from the
Commander's Emergency Response Program (CERP).

While this project improved and updated the electrical power service to better meet Khowst City's
residential and business needs, our inspectors found that: 1) one of the two contracts for improvements to
the Khowst City Power System did not include a number of key requirements; 2) the contractor who was
awarded that contract did not meet several important contract requirements; 3) U.S. government quality
assurance was inadequate; and 4) the Government of the Islamic Republic of Afghanistan (GIRoA) may
lack the capacity to operate and perform maintenance of the project in a manner that sustains the U.S.
government's investment of almost $1.6 million.

At the conclusion of the inspection, SIGAR briefed the commander of the PRT and the higher
headquarters of the Khowst PRT to inform them of our preliminary findings. Additionally, the Khowst PRT
provided comments on a draft of this report which we considered in preparing this final report. These
comments generally concurred with the report's findings and recommendations. Additionally, the
commander's response clarified remaining questions. As a result, the Khowst PRT along with its higher
headquarters is taking steps to correct the deficiencies SIGAR identified during this inspection. SIGAR
may conduct follow-on inspection activities to confirm the effectiveness of these corrective actions.

If you have any questions about this report, please contact me at (703) 568-5049 or by email at
guy.sands-pingot@sigar.mil. For public affairs queries concerning this report, please contact SIGAR
Public Affairs at pUblicaffairs@sigar.mil or at 703-602-8742.

Very respectfully,




Guy Sands-Pingot
Assistant Inspector General for Inspections
Office of the Special Inspector General for Afghanistan Reconstruction




SIGAR Inspection-09-1Improvements to the Khowst City Electrical Power System                      Page i
                                                                             Summary of Report: SIGAR 09-1                  July 28, 2009



    @SIGAR                                                                   Inspection of Improvements to the Khowst
                                                                             City Electrical Power System: Safety and
                                                                             Sustainability Issues Were Not Adequately
    Special Inspector General for Afghanistan Reconstruction                 Addressed
 What SIGAR Inspected -
 In May 2009, SIGAR inspected the infrastructure improvements made to the Khowst City Electrical Power System. This
 project was funded by the Commander's Emergency Response Program (CERP) in the amount of nearly $1.6 million, and
 implemented by the Khowst Provincial Reconstruction Team (PRT). The four objectives of the Inspection were to determine
 if:

   •   The contracts effectively addressed the requirements identified during the development of the project;
   •   The completed work met the required scopes of work as defined in the contracts;
   •   The U.S. Government provided adequate oversight of the project; and
   •   The Government of the Islamic Republic of Afghanistan (GIRoA), at both provincial and local levels, is able to operate
       and maintain the infrastructure in a safe and sustainable manner.

 What SIGAR Found -
   • The contract which covered the repairing and refurbishing of Power Plant 1, bUilding Power Plant 2, and the purchase
     and installation of three new S62kiioWatt (kW) generators (Contract 1) failed to include key requirements needed for
     the system to operate in accordance with the original design plan;
   • The contractor responsible for executing Contract 1 did not comply with all requirements specified in the scope of work,
     however, the contractor responsible for the extension of the City's underground electrical network system (Contract 2)
     complied with the terms of that contract with no deficiencies noted;
   • U.S. Government quality assurance and oversight of the project was inadequate; and
   • Afghan authorities may not have sufficient capacity to maintain and repair the project in a safe and sustainable manner.
 Selected Key Findings -
   • Local operators at both power plants are exposed to significant safety hazards from exposed high voltage cables and
     wires, and open electrical boxes;
   • Fuel storage tanks for the generators at both Plants pose an environmental hazard since the tanks are corroded, lack a
     system for spill containment and in the case of the Power Plant 1, allowed fuel to leak into the ground behind the main
     building;
   • Plaster is falling down from walls and ceiling in Power Plant 1 posing a hazard to plant operators and machinery.
 Conclusion - The project improved the overall amount of potential electrical power available for Khowst City. However, due
 to the GIRoA and local operators' limited capability to sustain the infrastructure and the considerable safety hazards which
 negatively impact the operation of the facilities, there is risk to the U.S. Government's investment of $1.6 million in this
 project. Further actions are necessary to ensure an effective maintenance program is implemented and institutionalized.

 What SIGAR Recommends -
 That the PRT:
   • Correct the safety hazards and other technical deficiencies noted in
     this report;

   • Assign qualified personnel to provide oversight of the follow-on CERP
     projects at the Khowst Electrical Power System.

   • Provide training and mentoring of the power plant management and
     personnel to build capacity to address issues of long term
     maintenance and sustainability.

   • Review its other CERP projects to determine if it is providing
     adequate project oversight and adequate training and mentoring to
     build capacity for long-term project sustainability.
 Khowst PRT Response:
 The PRT concurred with SIGAR's findings and recommendations stating                        Photo: One of the three new generators installed at the
 that it will initiate a series of follow-on projects to correct the                        Khowst City Power Plant 1 using CERP funds through iii
 deficiencies and hazards noted by SIGAR.                                                   project Initiated and overseen bV the Khowst PRT:
 For more in/ormotlon: SIGAR Public affairs ot (703) 602·8742 or PublicAffqirs@slgor.mif    (Photo-SIGAR)

SIGAR Inspection-09-1Improvements to the Khowst City Electrical Power System                                                               P=>nc ii
                                         Spedallnspector General for Aflhanlstan Reconstruction



        Table of Contents
  Introduction                                                                                        1

  Background                                                                                          1

  Objectives of SIGAR's Inspection of the Khowst Electrical Power System Project                      5

  SIGAR's Inspection Findings:                                                                        5
       Safety and Sustainment Issues Were Not Adequately Addressed by the PRT

  SIGAR General Observations and Comments:                                                           12
       Power Plant Management Needs an Effective Training Program to Address Safety Issues
       and Improve Sustainability

  Conclusions:                                                                                        12
       The U.S. Government's Investment of $1.6 Million in this Project is at Risk if Afghan
       Authorities Cannot Maintain the Equipment and Sustain the System

  Recommendations                                                                                     12

  Management Comments                                                                                 13

  Evaluation of Management Comments                                                                   13

  Appendix A - Scope and Methodology                                                                  14

  Appendix B - Summary of the Requirements of Contracts 1 and 2                                       15




  Abbreviations:

    ANDS                             Afghanistan National Development Strategy
    CERP                             Commander's Emergency Response Program
    CJTF                             Combined Joint Task Force
    GIRoA                            Government of the Islamic Republic of Afghanistan
    kW                               kilowatt
    PRT                              Provincial Reconstruction Team
    SIGAR                            Special Inspector General for Afghanistan Reconstruction
    SOW                              Statement of Work/Scope of Work
    USFOR-A                          US Forces-Afghanistan




SIGAR Inspection-09-1Improvements to the Khowst City Electrical Power System                      Page iii
                                         Special Inspector General for Afahanlstan Reconstruction


        Introduction

        Afghanistan currently generates very little electricity, and must purchase most of its power
        from neighboring countries. Consequently, the Government of the Islamic Republic of
        Afghanistan (GIRoA) estimates that less than 20 percent of the Afghan population has
        access to public electricity.

        The Afghanistan National Development Strategy (ANDS), which establishes reconstruction
        goals for Afghanistan and is supported by the United States and the international
        community, identifies the development of the energy sector as "a key precondition for
        reducing poverty and strengthening private sector and rural development." 1 The ANDS
        energy objectives set the national goal for the generation and distribution of electricity to
        reach at least 65% of households and 90% of nonresidential establishments in major urban
        areas and at least 25% of households in rural areas by 2011.

        The Khowst City Electrical Power System Improvements project, in keeping with the
        national strategy to expand access to electricity in the provinces to spur economic
        development, was designed to provide the residents and businesses of Khowst with
        reliable power on a sustainable basis.


         Background

         Khowst, a medium-sized city located in the central part of Afghanistan near the border
         with Pakistan, has an estimated population of about 160,000. In early 2007, provincial
         government officials determined that the city's power plant needed to be upgraded and
         the distribution system expanded to meet the growing demand in the city for electricity.

         Both the Governor of Khowst Province and the Khowst City Mayor asked the U.S.-led
         Khowst Provincial Reconstruction Team (PRT) to develop and fund a project to refurbish
         the existing power plant, install additional generating capacity by building a second plant
         and expanding the distribution system.

         During a series of site visits from September 2007 to January 2008, the PRT found that the
         Khowst Power Plant and its associated facilities were in a severely dilapidated condition.




         'The Islamic Republic of Afghanistan's Afghanistan National Development Strategy, Energy Sector Strategy,
         1387-1391 (2007/08-2012-13)' Pillar III Infrastructure, page 33, website link:
         http://www.ands.gov.af/ands/final ands/src/final/sector strategies/Energy%20Sector%20Strategy%20-
         %20English.pdf




SIGAR Inspeetion-09-11mprovements to the Khowst City Electrical Power System                                     Page 1
                                         Spec1allnspeetor General for Afghanistan Reconstruction




        Photo 1: Power Plant 1 PRE·IMPROVEMENT Condition of Power Plant 1, Spring, 2008 (Courtesy of Khowst
        PRT)


        The existing power plant (Power Plant 1) was operating with two 400 kilowatt (kW) diesel
        fuel generators that had been donated and installed in 2003-2004 through the United
        Nations Development Program (UNDP) national electrification project and an old diesel
        generator of Czechoslovakian design that dated back to the 1950s. 2 Although the
        combined potential capacity of these three generators was approximately 1,124 kW, the
        power output was unreliable and on average far less than the amount required by users.
        As part of its initial assessment of Power Plant 1, the PRT identified several safety
        concerns:

              •   The electrical power cables ran directly from an open distribution panel, across the
                  floor to the generators. As a result, local plant operators were routinely exposed to
                  a significant shock hazard. (Photos 2 and 3); and,

              •   The 20,000 liter fuel tank which was installed in 2003 as a part of the UNDP
                  improvement program at the rear of Power Plant l's main building was balanced
                  on loose bricks and lacked a fuel spillage containment area. Additionally, defective
                  hose fittings caused fuel to leak into the ground directly behind Power Plant 1
                  (Photo 4).



         2 This Czech generator, with a capacity of 324 kW, had been installed sometime in the 1980s during the
         period of Soviet occupation and has since been retired from operation although it is still located at Power
         Plant 1.




SIGAR Inspection-09-1Improvements to the Khowst City Electrical Power System                                           Page 2
                                         Special Inspector General for Afghanistan Reconstruction




         Photo 2 and 3: Power Plant 1 PRE·IMPROVEMENT-The main power distribution panels at Power Plant 1
         as they appeared prior to the renovation work done in the spring 2008; showing no cover doors and high
         voltage wires lying exposed on the ground instead of being run through power cable canals that lead to the
         generators. (Photo courtesy of Khowst PRT)




        Photo 4: Power Plant 1 PRE·IMPROVEMENT-The 20,000 liter diesel fuel storage tank located at the outside
        rear wall of the main Power Plant 1 building. The tank is balanced on a platform of loose bricks with no
        spillage containment. Hoses are leaking fuel into the ground. The support deficiencies and lack of a spill
        containment area were documented requirements for the project in January 2008; however, no provision to
        improve this condition was made in the final scopes of work for the project. This photo documents the
        conditions observed by the 51 GAR Inspection Team in May 2009. (Photo courtesy of Khowst PRT)




SIGAR Inspection-09-1Improvements to the Khowst City Electrical Power System                                    Page 3
                                         Special Inspector General for Afghanistan Reconstruction


        After deciding to support the project, the PRT obtained the volunteer services of a local
        Afghan electrical engineer who had been previously employed by the PRT. This engineer
        helped assess the project requirements, drafted a proposed scope of work and produced
        design drawings (what is collectively called the Improvement Design Plan). He also
        provided advice to the PRT on quality assurance issues several times during the
        construction period. 3 The Improvement Design Plan included refurbishing the original
        power plant (Power Plant 1), building a second power plant (Power Plant 2), and repairing
        and extending the city's electrical network. The PRT obtained approval to fund the
        Improvement Design Plan through the Commander's Emergency Response Program (CERP)
        funds.' The PRT developed two scopes of work which served as contracts to implement the
        Improvement Design Plan (collectively called the Contracts). The Contracts were awarded
                                          s
        through a closed bidding process in March 2008. The PRT expected the project to be
        completed in September 2008.

        The PRT awarded the first contract (Contract 1); valued at $575,000, to a local Khowst
        company (Contractor 1). Contract 1 required the company to complete repairs and make
        improvements to Power Plant 1, build Power Plant 2 and install 3 new generators at Power
        Plant 1. The PRT awarded a second contract (Contract 2), valued at just over $1 million to a
        construction and engineering company based in Kabul (Contractor 2). Contract 2 required
        the company to repair and extend the Khowst City electrical network. Summary scopes of
        work for both Contracts are provided in Appendix C.



                                                                                         Photo 5: One of the two 400kW
                                                                                         generators installed by UNDP in
                                                                                         2003 that were operating prior to
                                                                                         the rehabilitation of Power Plant
                                                                                         No.1 in 2008. Both generators
                                                                                         are still in operation; at Power
                                                                                         Plant 1 as the main backup power
                                                                                         source, and the other generator
                                                                                         relocated to serve as the only
                                                                                         power generation source for
                                                                                         Power Plant 2. (Courtesy of
                                                                                         Khowst PRT)



         3 This engineer had previously worked for the PRT before leaving to work as a construction engineer for the
         International City Managers Association (ICMA). an implementing partner for the United States Agency for
         International Development (USAID) funded Afghanistan municipal development program. The Engineer
         performed this pro bono work, not as a representative of the ICMA, but due to his desire to improve
         conditions in Khowst.

         4   Khost-Khost-7194-20057 (project proposal) dated July 13, 2007 approved at the OTF-82 Command level.

         5 The PRT proVided documentation to SIGAR that contractor selection was accomplished through a closed

         bidding process in which the Improvement Plan and technical specifications for the Project were distributed
         to six pre-selected contractors.




SIGAR Inspection·09-1Improvements to the Khowst City Electrical Power System                                                 Page 4
                                         Speclallnspector General for Afghanistan Reconstruction



        Objectives of SIGAR's Inspection of Improvements to
        the Khowst Electrical Power System
        THE OBJECTIVES OF SIGAR'S INSPECTION WERE TO DETERMINE IF:


              1. The contracts effectively addressed the requirements identified during the
                 development of the project;

              2. The completed work executed by the contractors met the required scopes of work
                 as defined in the contracts;

              3. The U.S. Government provided adequate oversight of the project; and

              4. The Government of the Islamic Republic of Afghanistan (GIRoA) authorities
                 responsible for the operation of the Khowst Electrical Power System, at both the
                 provincial and local levels, is able to operate and maintain the infrastructure in a
                 safe and sustainable manner.


         SIGAR Inspection Findings
            1.a. Contract 1 (Refurbishment of Power Plant 1 and Construction of Power Plant 2)
                 omitted several important project requirements.

                  •    At Power Plant 1, the existing fuel tank had deficient supports and lacked a spill
                       containment wall that should have been corrected by inclusion in Contract 1
                       (See Photo 4).


                  •    At Power Plant 1, protective covers/housing units for the generators were not
                       included in the purchase agreement. These protective covers are necessary to
                       protect the generators from dust as well as reduce both noise and excessive
                       vibration caused during their operation.

                  •    At Power Plant 2, the original design plan identified the requirement to
                       purchase and install two 6,000 gallon fuel storage tanks. That requirement was
                       not included in Contract 1. City officials installed a used 10,000 gallon fuel tank
                       at Power Plant 2 as an ad hoc measure to address this requirement. Significant
                       corrosion and deterioration of this tank creates a risk of fuel contamination.
                       Moreover, the tank sits on loose rock piles (Photos 6 & 7). The spill
                       containment "wall" consists of nothing more than large rocks cemented in
                       place. (See Photo 7).




SIGAR Inspection-09-1Improvements to the Khowst City Electrical Power System                            Page 5
                                           Special Inspector General for Afghanistan Reconstruction




                 Photo 6: Power Plant 2. A view of the one of the 400kW generators relocated to an outdoor
                 enclosure in the southern part of Khowst City at Power Plant 2. To the right is improvised
                 diesel fuel storage tank, balanced on rocks and encircled by a containment area made up of
                 large rocks cemented into place. Further the chain link fence surrounding the outdoor
                 enclosure does not reach the roof and would not provide a barrier to anyone attempting to
                 access the enclosure without permission. May 2009. (Photo-SIGAR)




                 Photo 7: Power Plant 2. Corroded fuel tank used as a diesel fuel reservoir. The tank is supported by
                 loose rocks and the spill containment wall is inadequate (Photo-SIGAR)




SIGAR   Inspectjon~09~1Improvements   to the Khowst City Electrical Power System                                  Page 6
                                         Special Inspector General for Afghanistan Reconstruction




             b. Contract 2 (extension of the Khowst City electrical underground distribution
                system) effectively addressed project requirements.

                  •   As a result of project requirements being included within Contract 2, the
                      underground electrical distribution network was emplaced in accordance with
                      the Improvement Design Plan.

           2.a. Contractor 1 did not meet several Contract 1 requirements:

                  •   The new galvanized steel roof for the main Power Plant 1 building was not
                      properly secured, allowing moisture to seep through the roof and accumulate
                      under the ceiling plaster. This has caused sections of the interior ceiling to crack
                      and break off (Photo 8);

                  •   The window frames were constructed from wood instead of metal, therefore,
                      they are more prone to rot and damage;

                  •   The power distribution box for the Power Plant 2 generator was not properly
                      secured to the concrete floor of the structure. It was set on top of two loose
                      concrete slabs. The resulting instability ofthe distribution box creates a
                      potential electrical hazard. (Photo 9)




                         Photo 8: Power Plant 1. A view of the ceiling area in the rear left corner of
                         Power Plant 1 that shows extensive cracking and deterioration of the plaster
                         work less than 1 year after the building was renovated. (Photo-SIGAR)




SIGAR Inspection-09·1Improvements to the Khowst City Electrical Power System                             Page 7
                                         Special Inspector General for Afghanistan Reconstruction




                           Photo 9: Power Plant 2 - View of the power distribution panel
                           being balanced on one of two concrete slabs without any other
                           means of support. (Photo-SIGAR)

                  b. Contractor 2 executed Contract 2 with no deficiencies noted.

                      •    Contractor 2 emplaced the underground electrical distribution network in
                           accordance with the Statement of Work of Contract 2. SIGAR found that
                           this network has been working in the manner required by Contract 2.

         3. U.S. Quality Assurance provided by the PRT was Inadequate:

                       •   Due to the difficult security situation and the limited ability of PRT personnel
                           to visit the work sites, PRT Khowst hired two local engineers to conduct
                           quality assurance inspections. During interviews with SIGAR, the local
                           engineers stated that they conducted such inspections, but the PRT did not
                           provide them with copies of the contract nor give them a checklist of work
                           required by the contracts. As a result, the inspections were cursory, as
                           reflected in each ofthe three PRT quality assurance reports available for
                           review (Photo 10). These reports did not provide management with
                           sufficient information to effectively oversee the quality or status of the
                           construction work. For example, the June 29, 2008 report only states,
                           "looked at Generators - building - electrical" but provides no information
                           on the quality of the work in progress or the status of the project.




SIGAR Inspection-09-1Improvements to the Khowst City Electrical Power System                            Page 8
                                                Special Inspector General for Afghanistan Reconstruction




                        •     The PRT also utilized the volunteer services of a local engineer who had
                              previously extensively worked for them. The project files inspected by
                              SIGAR contained 3 reports detailing progress of work pursuant to the SOW
                              and identifying specific issues of concern. For example, the engineer
                              conducted a review of the site on June 24, 2008. His assessment identified
                              several instances of Contractor 1 not conforming to the SOW. As a result of
                              the engineer's oversight a number of these issues were resolved in a
                              meeting between Contractor 1, the PRT commander, the Provincial Director
                              of Power and Water, and the engineer. In the late summer of 2008, the
                              Engineer moved to another province and was no longer available. After his
                              departure, the effectiveness of the PRT's quality assurance further declined.

                        •     The PRT was not able to provide SIGAR with many of the files relating to the
                              Khowst Electrical Power System Improvements project. According to the
                              current Khowst PRT leadership, many of the electronic files may have been
                              lost when the previous PRT members changed computer systems. However,
                              in addition to the electronic documentation, SIGAR reviewed the hardcopy
                              project file and found documentation of the quality assurance and work
                              progress to be very limited. The project file did not contain documentation
                              of a final inspection. The project file did contain photos of the sites in
                              September 2008.




                                                                                                             Illl-I).II)C ~rPIlRT
                              PROJECT QAlQC REPORT
                                                                                 \\\Iliit I\'ru 11'11.\ _ _

            Date: Ma)· 20, 2008                                                  11\11-      ~.




            Project: Diesel House                                                j'\WJ1"lT        '                         " •.
            District: Center                                                     PIWl1rf'l1l1         \.,~

            Status:
                                                                                 'Imllt'lI'llilll
            Pl'11:Cnt of Projcct Complete: Ahou1800/0
                                                                                 ((l\lk\(II\(,fmIP\\\:                                                     _

                                                                                 lll\IR\llUlb\\\1I            _i                         _
            Obserration Check list:
                                                                                 1l\-lltC(l\I\( 1\\111'111'11'                          _~.., _~_
            I TIle old huildiog of Et<etri,ili Ila; "'pai",d
            2. PI.>!.,. was good                                                 1,1 \111\1 \(111\
                                                                                 111-'II'IIIIlI'o(I"'_UI\     U,.lil~   ",u_,ooIl.. \",d.:I.rIollII.L.~.
            J Painting was satisfactory.                                         .,,,.,••DdJho!l\. r,1
            4.10c new house metallJUSS wort was C<1mplele well.                                                           , ,
            j_~lso the metal pipe installati"n wort was 00 going




               Photo 10 and 11: Examples of the Quality Assurance reports submitted to the PRT in June 2008.
               (Photo-- 51 GAR)




SIGAR Inspection-09·1Improvements to the Khowst City Electrical Power System                                                                                   Page 9
                                         Spedallnspector General for Afghanistan Reconstruction




             4.a. The GIRoA May Have Difficulty Sustaining Operations and Maintenance of The
                  Khowst City Electrical Power System

                    •   SIGAR has significant concerns about the Afghan Authorities' capability to
                        provide effective long-term maintenance of the Khowst Power System. At the
                        time of SIGAR's visit, only two of the three new 562kW generators and one of
                        the two 400kW generators were operational. One of the 562kW generators
                        was inoperative pending receipt of parts. The second of the 400 kW
                        generators was not being used. Rather, it had been located behind power
                        Plant 1 and was exposed to the elements.

                    •    Khowst Power System officials said there was no local budget to support
                         routine maintenance or purchase rudimentary safety items-such as earplugs,
                         gloves, goggles or simple uniforms-for their employees. While the
                         Provincial Ministry of Power and Water charges customers in Khowst for the
                         use of electricity, the revenue is collected through the Ministry of Finance
                         which disburses funds according to the national budget to the various
                         ministries and government agencies.

                    •    SIGAR's Interviews with Khowst City Electrical Power System officials, a
                         preliminary site visit in early 2009 and an on-site inspection of Power Plants 1
                         and 2 raised concern about the plant manager's ability to operate the
                         generators in a safe and sustainable manner. For example, only one of the 20
                         people who work at Power Plant 1 had received any training on the operation
                         and maintenance of the generators. Operating manuals for the new
                         generators were in English making them unusable by local officials.

                    •    The plant manager also indicated that according to his organization chart he
                         should have up to 36 employees working at the two Power Plant facilities, but
                         his budget allows for only 20 personnel. Therefore, most of the power plant
                         staff members are required to work overtime to keep the Khowst City
                         Electrical Power System operational.

                b. SIGAR Noted the Following Problems that Demonstrate the Difficulties Facing
                   the GIRoA Relating to Sustainment:

                    •    The automatic synchronization mechanism (Automatic Synchronizer) installed
                         at Power Plant 1 was operational at the time of Contract 1 completion in
                         September 2008. The synchronizer mechanism is required for the three new
                         generators to operate in synchronization, while powering the main
                         distribution panel through one set of cables. It also permits the operators to
                         take one generator offline, to perform routine maintenance




SIGAR Inspection-09-1Improvements to the Khowst City Electrical Power System                           Page 10
                                          Speclallnspector General for Afghanistan Reconstruction


                         and repairs, while continuing to provide electrical power to the grid with the
                         other two generators. The synchronizer mechanism failed shortly after the
                         project was completed and the Power Plant manager was unable to repair the
                         mechanism.

                    •    The third new generator at Power Plant 1 broke down within four months of
                         handover to the Afghan Authorities. Partially because the Power Plant 1
                         Manager lacked the authority to contact the Contractor directly, the warranty
                         provisions of Contract 1 were not utilized. At the time of the SIGAR
                         inspection, the power plant manager said that the parts required to effect
                         repairs were on order through the national Ministry office for Public Works in
                         Kabul.

                    •    The Power Plant 1 Manager has bypassed the failed synchronizer mechanism
                         and temporarily wired the two working generators directly into the front of
                         the power distribution panel. Each generator is powering a separate circuit of
                         the city's electrical power grid. This has allowed Power Plant 1 to continue
                         providing electrical power to the eastern and northern sections of the City,
                         while Power Plant 2 provides power to the southern part of the City.

                               This full time usage of the two new generators at Power Plant 1 will
                               almost certainly shorten the economic life of the generators. The
                               generators are logging more hours and not being properly maintained.

                               Taking any of the operational generators off line to for repairs or routine
                               maintenance will leave sections of the city without any public electrical
                               power.

                               Because the doors to the electrical power distribution panels are open
                               and the electrical power cable terminations are uncovered, plant
                               operators are exposed to a significant shock hazard (see Photo 12).




                                                                                             Photo 12: 400 kW distribution
                                                                                             panel at Khowst Power Plant 1
                                                                                             with high voltage cables lying
                                                                                             exposed. Additionally the
                                                                                             distribution panel is propped
                                                                                             up with loose bricks. (Photo
                                                                                             taken by SIGAR)




SIGAR Inspection-09-1 Improvements to the Khowst City Electrical Power System                                                 Page 11
                                         Special Inspector General for Afghanistan Reconstruction


        SIGAR General Observations and Comments

        A more effective training and mentorship program could help the power plant manager
        address serious safety issues as well as improve the sustainability of the power plants. For
        example, the power plant personnel have demonstrated initiative in creating a work
        around for the inoperative synchronization mechanism. However, the resulting exposure
        to the breaker panels and electrical cables has also created a high voltage electrical hazard
        as well as jeopardizing the long-term health of the generators. Developing the capacity to
        make the necessary repairs in a timely manner will improve safety conditions and the life
        expectancy ofthe generators.


        Conclusions

        The United States has invested nearly $1.6 million dollars to repair and update the city of
        Khowst's electric power generation and distribution capacity. However, without additional
        assistance, the Khowst Power System will not be able to provide increased power to the
        local community over the long-term. Without adequately trained staff on site, efficient use
        of resources, and the immediate imposition of basic safety procedures, catastrophic events
        could occur that can put people's lives at risk and/or damage the installed equipment.
        Given the fact that the demand for electric power will continue to grow, it becomes
        increasingly important that the supply of electricity to the residents and businesses of
        Khowst is reliable and stable.


         Recommendations

         SIGAR RECOMMENDS THAT THE PRT:

              •   Correct the safety hazards and other technical deficiencies noted in this report;

              •   Assign qualified personnel to provide oversight of the follow-on CERP projects to
                  correct the safety hazards and technical deficiencies at the Khowst Power System.

              •    Provide training and mentoring of the power plant management and personnel to
                   build capacity to address issues of long term maintenance and sustainability.

              •    Review its other CERP projects to determine if it is providing adequate project
                   oversight and adequate training and mentoring to build capacity for long-term
                   project sustainability.




SIGAR Inspection-Og·llmprovements to the Khowst City Electrical Power System                          Page 12
                                         Special Inspector General for Afghanistan Reconstruction




        Management Comments
        SIGAR provided a draft of its report to the Khowst PRT for comment. The commander of
        the Khowst PRT concurred with each of the recommendations listed in the draft report.
        Additionally, the PRT stated that its representatives had conducted follow-up visits to both
        power plants in May and June 2009 to develop a plan that addresses the recommendations
        made by SIGAR. The PRT also reported that Combined Joint Task Force - 82 had approved
        CERP funding to complete the necessary work. These new projects will install two new fuel
        tanks as originally envisioned in the Improvement Plan. The new projects will also install
        new power distribution panels and eliminate the safety hazards at both power plants.
        According to PRT personnel, the project will begin soon.

        Additionally, the PRT advised that training of operators is now a requirement in order for
        this type of project to be approved. The PRT also stated that CERP approval process at its
        next higher level of command has also been enhanced to require documentation of a
        GIRoA plan for sustaining and maintaining the associated infrastructure. SIGAR has not yet
        verified these statements and may conduct follow-on inspection activities to confirm
        corrective actions.

         Due to SIGAR's concerns about the significant safety hazards identified in this Report, and
         in order to facilitate quick corrective action, the Report was not provided to U.S. Forces-
         Afghanistan for management comments.


         Evaluation of Management Comments
         The draft report was modified based on additional information and clarifying comments
         received from the Khowst PRT. SIGAR believes that the PRT actions, if fully implemented,
         will address the recommendations contained in this report.




         (This report was conducted under the Inspection Project Code SIGAR-001-1)




SIGAR inspection-09-1Improvements to the Khowst City Electrical Power System                        Page 13
                                         Special Inspector General for Afghanistan Reconstruction




        Appendix A-Scope and Methodology

        SIGAR performed this project assessment and inspections activities from May to June 2009
        in accordance with Quality Standards for Inspections issued by the Council of the
        Inspectors General on integrity and Efficiency. The inspections team included the Assistant
        Inspector General for Inspections, an engineer analyst/inspector and two
        auditor/inspectors.

        In performing this project inspection, SIGAR:

             •    Reviewed Contract documentation to include the following:
                  Contract KHOST-KHOST-7194-20057; relevant purchase orders, invoices, and
                  vouchers dealing with the project;

             •    Reviewed the design package to include drawings and specifications, PRT quality
                  assurance reports, construction progress photos and other documentation brought
                  to the inspection team's attention;

             •    Interviewed the Khowst PRT Commander and other knowledgeable members of his
                  staff; the volunteer engineer who proVided the initial draft Improvement Plan;
                  knowledgeable Khowst City and Provincial authorities who deal with energy related
                  issues; the Khowst Power Plant Manager and a representative ofthe Principal
                  Assistant Responsible for Contracting-Afghanistan; and

             •    Conducted an on-site inspection of the Khowst Power Plants on 16 May 2009.
                  Personnel from the Khowst PRT, including the current PRT Engineer, accompanied
                  51GAR inspectors during the inspection of the infrastructure at the Power Plants.
                  Due to security-related time constraints SIGAR performed an expedited inspection
                  of the infrastructure improvements completed under Contracts 1 and 2. SIGAR is
                  very appreciative of the security protection and other support provided by the PRT.




SIGAR Inspection·09-1Improvements to the Khowst City Electrical Power System                        Page 14
                                         Speclallnspector General for Afshanlstan Reconstruction



        Appendix B-Summary of the Requirements of
        Contracts 1 and 2
        Requirements of Contract 1

             •    Repair of Power Plant 1
                      Demolition/replacement of the plaster roof with a metal one
                      Application of plaster to all exterior/interior surfaces
                      Installation of a new metal door
                      Repair and pointing of windows and doors (all made of metal)
                      Installation of galvanized metal roof
                      Electrical system installation


             •    Construction of Power Plant 2
                      Construction of a new power plant and guard tower
                      Installation of a fence around the power plant
                      Installation of a grounding system for the generator
                      Installation of all electrical wire, lights, and outlets in the power plant
                      Installation of a galvanized metal roof

                                                                                             6
             •    Installation of 3 x 500kW (revised to 562kW) generators
                       Provide and install all electrical cables underground
                       Provide and install all boxes for meters
                       Provide and install a 9-circuit switch box
                       Provide and install asphalt and repair damage done during cable installation


         Requirements of Contract 2

             •    Repair and Extend the        Khowst City Electrical Network
                     Provide and install       high voltage electrical step-up transformers
                     Provide and install       electrical trenching
                     Provide and install       electrical distribution systems
                     Provide and install       ground meter boxes
                       Provide and install circuit breakers
                       Provide and install 9-circuit switch box
                       Provide and install all underground electrical cable


         • Original plan for 3x500kW generators was changed because the PRT determined that 562kW capacity
         generators represented best value for funds expended.




SIGAR Inspection-09·1Improvements to the Khowst City Electrical Power System                                 Page 15
                                         Speciallnspeetor General for Afghanistan Reconstruction



        SIGAR Mission and Contact Information

        SIGAR's Mission             The mission of the Special Inspector General for Afghanistan
                                    Reconstruction is to enhance oversight of programs for the
                                    reconstruction of Afghanistan by conducting independent and objective
                                    audits, inspections, and investigations on the use oftaxpayer dollars and
                                    related funds. SIGAR works to provide accurate and balanced
                                    information, evaluations, analysis, and recommendations to help the     u.s.
                                    Congress, U.S. agencies, and other decision-makers to make informed
                                    oversight, policy, and funding decisions to:

                                    •    Improve effectiveness of the overall reconstruction strategy and its
                                         component programs;
                                     •   Improve management and accountability over funds administered by
                                         u.s. and Afghan agencies and their Contractors;
                                     •   Improve Contracting and Contract management processes;
                                     •   Prevent fraud, waste, and abuse; and
                                     •   Advance u.s. interests in reconstructing Afghanistan.


        Obtaining Copies of SIGAR              To obtain copies of SIGAR documents at no cost, go to
        Reports and Testimonies                SIGAR's Web site (www.sigar.mil). SIGAR posts all released
                                               reports, testimonies, and correspondence on its Web site.

        To Report Fraud, Waste, and            To help prevent fraud, waste, and abuse by reporting
        Abuse in Afghanistan                   allegations of fraud, waste, abuse, mismanagement, and
        Reconstruction Programs                reprisal contact SIGAR's hotline:

                                                     •    Web: www.sigar.mil/fraud
                                                     •    Email: hotline@sigar.mil
                                                     •    Phone Afghanistan: +93 (0) 700-10-7300
                                                     •    Phone DSN Afghanistan 318-237-2S75
                                                     •    Phone International: +1-866-329-8893
                                                     •    Phone D5N International: 312-664-0378
                                                     •    U.S. fax: +1-703-604-0983

        Public Affairs                         Public Affairs Officer

                                                     •    Phone: 703-602-8742;
                                                     •    Email: PublicAffairs@sigar.mil
                                                     •    Mail: SIGAR Public Affairs
                                                          400 Army Navy Drive, Arlington, VA 22202




SIGAR Inspeetion-09-1Improvements to the Khowst City Electrical Power System                                 Page 16
